<html>
<title> - [H.A.S.C. No. 114-117] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2017 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 114-117]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2017

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

       SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES HEARING

                                   ON

                      FISCAL YEAR 2017 INFORMATION

                     TECHNOLOGY AND CYBER PROGRAMS:

              FOUNDATIONS FOR A SECURE WARFIGHTING NETWORK

                               __________

                              HEARING HELD
                             MARCH 22, 2016


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-077                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











                                     
  


           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                  JOE WILSON, South Carolina, Chairman

JOHN KLINE, Minnesota                JAMES R. LANGEVIN, Rhode Island
BILL SHUSTER, Pennsylvania           JIM COOPER, Tennessee
DUNCAN HUNTER, California            JOHN GARAMENDI, California
RICHARD B. NUGENT, Florida           JOAQUIN CASTRO, Texas
RYAN K. ZINKE, Montana               MARC A. VEASEY, Texas
TRENT FRANKS, Arizona, Vice Chair    DONALD NORCROSS, New Jersey
DOUG LAMBORN, Colorado               BRAD ASHFORD, Nebraska
MO BROOKS, Alabama                   PETE AGUILAR, California
BRADLEY BYRNE, Alabama
ELISE M. STEFANIK, New York
                 Kevin Gates, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                          Neve Schadler, Clerk
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Emerging Threats and Capabilities..............     1

                               WITNESSES

Halvorsen, Hon. Terry, Chief Information Officer, Department of 
  Defense........................................................     3
Levine, Hon. Peter, Deputy Chief Management Officer, Department 
  of Defense.....................................................     3

                                APPENDIX

Prepared Statements:

    Halvorsen, Hon. Terry........................................    26
    Levine, Hon. Peter...........................................    35
    Wilson, Hon. Joe.............................................    25

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Ashford..................................................    44
    Mr. Lamborn..................................................    44
    Mr. Langevin.................................................    43
    Ms. Stefanik.................................................    44

Questions Submitted by Members Post Hearing:

    Mr. Kline....................................................    52
    Mr. Lamborn..................................................    53
    Mr. Langevin.................................................    51
    Mr. Wilson...................................................    49
    
    
    
    
    
    
    
FISCAL YEAR 2017 INFORMATION TECHNOLOGY AND CYBER PROGRAMS: FOUNDATIONS 
                    FOR A SECURE WARFIGHTING NETWORK

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                           Washington, DC, Tuesday, March 22, 2016.
    The subcommittee met, pursuant to call, at 3:43 p.m., in 
room 2118, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Wilson. I call this hearing of the Emerging Threats and 
Capabilities Subcommittee of the House Armed Services Committee 
to order. I am pleased to welcome everyone here today for this 
hearing on the fiscal year 2017 budget request for information 
technology [IT] and cyber programs.
    Lately the Secretary has been highlighting the need for 
increased innovation in the Department of Defense [DOD] through 
public-private partnerships--and I was grateful that Secretary 
Ashton Carter was here yesterday on this issue, so it is right 
on point--as well as the importance of generating new 
capabilities to offset growing advantages of future potential 
adversaries.
    I believe that information technology and cyber will both 
serve as key enablers and, at the same time, present key 
challenges for the Department as it tries to realize its 
vision.
    In this time of fiscal constraint, I also believe it is 
equally important to enforce management rigor to make sure that 
we are squeezing the most out of every defense dollar where it 
makes sense. We need to learn from industry and use the kinds 
of business analytics and business intelligence methods that 
work so well in the commercial sphere. That also means using 
commercial tools to the maximum extent, especially in areas 
like business systems and cloud computing.
    We need to find better ways to foster and maintain our own 
human capital to support the acquisition and management of 
information technology and cyber systems. In looking through 
this most recent budget request, I want to make sure the 
Department is emphasizing these two complementary tracks--
increased innovation, as well as increased management 
discipline.
    I would like to welcome my distinguished panel of witnesses 
and appreciate their perspectives on all of these issues. This 
panel includes the Honorable Terry Halvorsen, Chief Information 
Officer [CIO], Department of Defense, the Honorable Peter 
Levine, the Deputy Chief Management Officer [DCMO], Department 
of Defense.
    I would like now to turn to my friend and ranking member, 
Mr. Jim Langevin from Rhode Island, for any comments he would 
like to make.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 25.]

  STATEMENT OF JAMES R. LANGEVIN, A REPRESENTATIVE FROM RHODE 
 ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Langevin. Thank you, Mr. Chairman. Thank you for 
convening this hearing. And I want to thank you to our 
witnesses for testifying today on the President's fiscal year 
2017 budget request for information technology and cyber 
programs.
    Last week, we heard about the cyber mission force build and 
operations from Admiral Rogers, and today we will hear about 
the infrastructure our warfighters operate within and defend 
for the enterprise. Cyber Command [CYBERCOM] has advocated for 
the ability to see the network in order to provide better 
defense. The joint information environment, or JIE, is the 
guiding effort for achieving this capability. And today I hope 
to hear about the progress made under the JIE umbrella, 
governance for this effort, and service contributions.
    Another major undertaking I would like to discuss today is 
implementing the Department's cloud strategy. The DOD's 
migration to the cloud has slowed due to laborious 
certification requirements and an acquisition system unable to 
keep up with cloud services procurement. This also seems to 
hinder any efficiency or cost savings that could otherwise be 
achieved.
    Finally, the DOD has been tasked with building and 
maintaining the IT system for OPM's [Office of Personnel 
Management's] new National Background Investigation Bureau. 
While it makes sense the Department provide expertise on 
building a secure system, I am concerned the DOD is assuming 
all the risk by providing resources and assuming responsibility 
for decisions made outside the Department.
    As a long-term advocate for cybersecurity within this 
subcommittee, I am glad we have taken the time to not only 
discuss the build and operations, but also the infrastructure 
our cyber warriors operate within every day over the last few 
weeks.
    Again, thank you, Mr. Chairman, and I want to thank our 
witnesses for being here today to discuss this important topic. 
And I yield back the balance of my time.
    Mr. Wilson. Thank you, Mr. Langevin. And now welcome again 
to our witnesses. Your written statements will be submitted for 
the record, so we ask that you summarize your comments in 5 
minutes or less, and then after that, each of the persons on 
the subcommittee will go through a 5-minutes process and Kevin 
Gates will make sure it is done correctly.
    So we now begin with Mr. Halvorsen.

 STATEMENT OF HON. TERRY HALVORSEN, CHIEF INFORMATION OFFICER, 
                     DEPARTMENT OF DEFENSE

    Mr. Halvorsen. Good afternoon, Mr. Chairman, Ranking 
Member, and distinguished members of the subcommittee. Thank 
you for this opportunity to testify before the subcommittee 
today on the Department's information technology budget 
request.
    As the Department's CIO, I am the principal adviser to the 
Secretary of Defense for information management, IT, 
cybersecurity, communications, positioning, navigation, and 
timing, spectrum management, senior leadership, nuclear command 
control, and communications matters. Those latter 
responsibilities are clearly unique to the DOD.
    My imperative at the CIO in managing this broad and diverse 
set of functions is to ensure that the Department has the 
information and communications technology capabilities needed 
to support the broad set of Department missions. This includes 
supporting our deployed forces and cyber mission forces, as 
well as business and warfighting support functions.
    As Secretary Carter has stated, DOD must address strategic 
challenges across all domains, not just air, land, and sea, but 
increasingly in cyberspace. The Department's budget includes 
funding to address these challenges, including IT and cyber 
investments that are critical to the Department's warfighting, 
intelligence, and business missions.
    As the CIO, I am driving cultural, business, technical 
improvements, and innovation into DOD's IT and cyber to better 
support defense missions and operations. My written testimony 
provides more detailed information on the Department's IT and 
cyberspace budget and priorities.
    I want to emphasize that these efforts require teamwork and 
partnership within DOD, which includes DISA [Defense 
Information Systems Agency], USD [Under Secretary of Defense] 
AT&L [Acquisition, Technology, and Logistics] and Policy, U.S. 
CYBERCOM, DCMO, and other partners.
    External partnerships to DOD will also be critical, to 
include Congress, industry, and our allies. I strongly believe 
an expanded partnership with industry will be essential to 
expanding and maintaining technology advantages, while 
improving our fiscal accountability.
    I thank you for your interest and support, and I look 
forward to your questions.
    [The prepared statement of Mr. Halvorsen can be found in 
the Appendix on page 26.]
    Mr. Wilson. Thank you, Mr. Halvorsen. We now proceed to Mr. 
Levine.

    STATEMENT OF HON. PETER LEVINE, DEPUTY CHIEF MANAGEMENT 
                 OFFICER, DEPARTMENT OF DEFENSE

    Mr. Levine. Thank you, Chairman Wilson, Ranking Member 
Langevin, and members of the subcommittee.
    I am Peter Levine, and I am the Deputy Chief Management 
Officer of the Department of Defense. Two years ago, this 
committee enacted legislation which will merge the offices of 
the DCMO and CIO. However, that legislation does not take 
effect until the beginning of the next administration, so until 
that time, the CIO, Mr. Halvorsen, will remain the responsible 
official within OSD [Office of the Secretary of Defense] for 
IT, cybersecurity, and many of the other issues addressed in 
your letter of invitation.
    The DCMO's role, until such time as this merger takes 
place, is limited to reviewing and approving of investments in 
IT business systems. We do thank you in that regard for last 
year's NDAA [National Defense Authorization Act], in which you 
substantially streamlined and gave us more flexibility in the 
way we do this. We intend to use this flexibility in several 
ways.
    First, we intend to change our focus from the discrete 
review of each individual small investment and focus more on 
portfolios, so we can be more forward-looking in our management 
of business systems. Second, we plan to focus much more on 
return on investment, so that we can ensure that when we invest 
in business systems, we actually realize the benefits that we 
should be able to get out of them, that we actually turn off 
the legacy systems and reduce manning, where we can develop 
more efficient and less manpower-intensive processes.
    And finally, we are going to work to develop a streamlined 
process for business systems where we can align our business 
systems investment process, our CIO process, and our 
acquisition process into a single process so that we don't have 
to sequentially go through one after the other and put the 
program manager through recurring hoops as we go forward.
    We are firmly committed to working with you as we try to 
make the business systems process more efficient and to improve 
the Department's investment process and look forward to your 
questions.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Levine can be found in the 
Appendix on page 35.]
    Mr. Wilson. Thank you very much. And we will now proceed 
with a 5-minute round. I want to commend Lindsay Kavanaugh and 
Jim Langevin for achieving an extraordinary turnout today. So, 
congratulations. You did good.
    And I will begin with myself. And this is for both of you. 
What do you see as the major budgetary challenges in this 
year's President's budget request? Where are we accepting risk 
based on current budget constraints?
    Mr. Levine. I will give the gentle answer, which is not 
enough money. And I will defer to Mr. Halvorsen as to the IT 
budget specifically.
    Mr. Halvorsen. I certainly echo Peter's first comment about 
not enough money. I think in the IT area, we are taking some 
risk in modernization. Some of it will slow. We are trying to 
balance that and make sure that we don't take that risk in the 
security side.
    The other I think challenge that we are going to have in IT 
may not be exactly in the budget, and it is going to be the 
retention of the IT workforce. And frankly, that is going to 
come down to an economic decision. I happened to be in the 
valley [Silicon Valley] last week, and, you know, Google 
announced they are raising the pay for cybersecurity by another 
20 percent. That is going to keep impacting our ability to 
attract talent.
    If you ask me about the budget, what keeps me up more at 
night, that is probably the answer, sir.
    Mr. Wilson. And thank you very much. And, Mr. Halvorsen, 
Chairman Mac Thornberry's most recent defense reform proposal 
emphasizes prototyping experimentation. Can you tell us what 
the Department is doing with regard to information technology 
and cyber programs that highlight these approaches?
    Mr. Halvorsen. Yes, thank you. I think a couple things that 
we want to think about when we answer this question, much of 
the innovation today being driven in the cyber and IT business 
is coming from the commercial sector. We want to be closer tied 
to the commercial sector, so thanks to some legislation last 
year, I am able to now put people from DOD inside of business--
and we are doing that today--and also have business people on 
my staff, which we are also doing today.
    I think that partnership that we continue to strengthen is 
a key to us getting the right innovation and getting it on 
time.
    Within the DOD, I want to focus our S&T [science and 
technology] dollars around the areas the industry isn't going 
to focus on, and that is going to be on the weapons systems and 
top-level security systems, where there is not yet much play in 
the commercial sector, and I think our budget reflects that 
that is where our emphasis is and also reflects where we are 
taking risk is around innovation dollars that we would have 
that were inside the budget for commercial areas that we have 
taken some risk and are not spending that much.
    Mr. Wilson. And, again, I am impressed with the efforts by 
Secretary Carter to work for public-private cooperation. 
Additionally, Mr. Halvorsen, in the fiscal year 2017 budget 
request, the Defense Information Systems Agency, the primary IT 
provider for the Department, eliminated the S&T funding it had 
to pursue innovation and technology demonstration. Please 
explain the rationale for that decision and how this aligns 
with the Secretary's emphasis on drawing in innovation from the 
commercial sector.
    Mr. Halvorsen. Yes, we certainly reduced DISA's S&T 
funding. They still have some R&D [research and development] 
money. But in the area we reduced it is aligned exactly--I 
think what we have said before--today, where we are going to 
get our information, and particularly true for most of DISA's 
activities, which are supporting our business functions, is 
from industry and commercial.
    So in a constrained budget, in my opinion, that was where 
we chose to take some risk, because I think I can get that same 
innovation affect by strengthening our relationships with 
commercial industry.
    Mr. Wilson. Additionally, Mr. Halvorsen, section 901 of the 
fiscal year 2015 NDAA mandated that the chief information 
officer begin to exercise authority, direction, and control 
over the Information Assurances Directorate of the National 
Security Agency.
    Recently, this subcommittee was made aware of a DOD 
proposal to place that authority, direction, and control back 
with the Under Secretary for Intelligence. Do you support the 
Department's proposal? What are the pros and cons of keeping 
that authority with the chief information officer?
    Mr. Halvorsen. I don't know that the Department has made a 
formal proposal yet. I know that it is being discussed. 
Candidly, I would have some concerns about moving it away from 
the DOD CIO, but more importantly what we are doing is working 
with the intel side of the Department to form a governance 
structure that will allow both CIO and intel equities in the IA 
[information assurances] money to be addressed.
    Mr. Wilson. Well, with your background, we would all 
appreciate any input at any time as we consider these issues.
    I now yield to Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Again, I want to 
thank both of our witnesses for being here and what you are 
doing in the IT and cyber sphere.
    So one of the questions I had--and, Terry, you talked about 
it just a minute ago in terms of, well, the private sector 
increasing what they are paying their cybersecurity folks, and 
it is going to be particularly challenging now for us to 
compete to get that top-end talent.
    I know in the NDAA last year, we gave more flexibility to 
the Department to try to take advantage of that IT talent. You 
know, for example, allowing potentially--as I envision it--to 
see private sector to be able to detail for maybe a year or two 
these high-end individuals that, you know, it would be 
challenging for us to both afford, attract, and keep for a long 
period of time.
    But, you know, companies have an interest in patriotic duty 
and want to help secure the Nation in cyberspace. So we made 
some progress in that with the NDAA, giving some flexibility to 
the Department. Can you tell me, do you need additional 
authorities to further take advantage of that talent so that we 
have the cyber workforce that is as robust as possible and our 
networks are as secure and as robust as possible?
    Mr. Halvorsen. First, I would thank you for the NDAA last 
year. That is helping some of the work we are able to do, the 
excepted workforce in cyber, being able to bring the people in 
from industry like we are doing now. I do think we will need 
some legislation that probably changes slightly the rule sets 
about what we are allowed to do with the industry people.
    I think exactly what you stated. We really want to be able 
to bring them in and have them sit in a position for a year, 
being able to execute some decisions within the Department, and 
then go back to industry, just like I think there is a market 
space today for us to have some of our civilian employees go to 
industry, and industry would like to have them--and I think we 
will need to tweak some of the legislation so that could happen 
more often.
    I think we share the vision. In the end, we want more of an 
in and out, back and forth. And you could really see the career 
path in cyber IT changing so that it is not an all-civilian or 
all-government career path, but a much more combined career 
path. And I think that would serve the Nation well.
    Mr. Langevin. Good. I mean, that is exactly where I hope 
that we are going to be and that is what we want to get to. 
Please, I hope you will work with us and tell us how we can be 
of help in terms of additional legislation and language that 
you need to get to that point.
    So as I mentioned in my opening statement, I find it 
appropriate the Department of Defense is involved in building a 
new IT system for OPM's new National Background Investigation 
Bureau [NBIB] that will house sensitive personnel information.
    However, I am concerned that the DOD has been given 
guidance and deadlines that are not realistic and is assuming 
all responsibility for performance, when the decision-making 
authority may be shared.
    So my questions are, can you describe the Department of 
Defense's role in building and maintaining a new IT system? 
Specifically, what is the amount requested for fiscal year 
2017, as well as in the out years? Was additional money added 
to the top line for DISA's role in this effort? Or is it coming 
out of hide?
    What are the resources that are being provided for this 
effort? Is the current workforce sufficient to meet the demand 
or will additional personnel be billeted? Will the Department 
have sole decision-making authority in building and maintaining 
the system? Or is it shared with OPM and other communities? And 
what timelines have been established for delivering the system?
    And, Mr. Levine, if I could--Levine, I am sorry--what role 
will you have in doing business process re-engineering to 
change the way NBIB does business so it fits the IT system, not 
the other way around? And if you need me to repeat any part of 
that, I will be glad to. Sorry it is such a long list.
    Mr. Halvorsen. So, sir, what I would like to do, because I 
do think that question deserves a lot of matter, is I will make 
some comments on it, but I will also like to take that for the 
record and get back to you with some of the specific answers.
    [The information referred to can be found in the Appendix 
on page 43.]
    Mr. Langevin. Fair enough.
    Mr. Halvorsen. For 2017, it is $95 million. There was a 
top-line increase to DOD for doing some of this. We will get 
you the exact numbers across the FYDP [Future Years Defense 
Program]. And then I would be foolish if I said there is not 
some concern on DOD's part about how this is going to work, and 
what I would assure you is from a standpoint of the build, we 
are going to get the requirements from the group that is 
looking at how we are going to redo the whole investigation 
process.
    When I have those requirements--and that group starts next 
week, and we have members on it--we will build a system that 
supports those requirements that also ensures security. If at 
any time I think that that is not happening, I will be the 
first to let you know.
    I am comfortable right now that we have worked out a 
governance process with OPM and OMB [Office of Management and 
Budget] that makes DOD the decision maker for all of the 
technical decisions and the security decisions, but I am still 
concerned and we will have to see how that goes forward. And I 
will get you more detail on the rest of the question.
    Mr. Langevin. I would appreciate it, whatever additional 
detail you could provide. And I would just assure we stand 
ready to support you in this effort as you make the transition. 
And Mr. Levine?
    Mr. Levine. With regard to the business process re-
engineering, we definitely have less of a role in that than we 
would have if the entire mission had been transferred to the 
Department of Defense. However, it was never going to be 
entirely the Department of Defense in any case because as you 
know the DNI [Director of National Intelligence] establishes 
security clearance policy, so we are always going to have to 
work with outside agencies and reconcile differences with 
outside agencies.
    We are undertaking with the Under Secretary of Defense for 
Intelligence to re-engineer the DOD part of the process. We are 
looking at continuous evaluation. We are looking at other 
measures to streamline our organization and streamline our part 
of the process. And we do still have a piece--significant 
pieces of the process. It is the investigation piece that OPM 
has, but not the entirety of the process.
    As we do that, we will see places where we are going to 
want help, we are going to want changes in the OPM piece of the 
process, and we will have to work that through the interagency, 
because we don't control it, but we will work it through the 
interagency process.
    Mr. Langevin. Very good. Thank you. I yield back.
    Mr. Wilson. Thank you, Mr. Langevin. We now proceed to 
Congressman Doug Lamborn of Colorado.
    Mr. Lamborn. Thank you. And I will get to the budget 
implications of this in just a minute, but how active are we in 
working with allies, NATO [North Atlantic Treaty Organization] 
allies, Israel, et cetera, in combating cyber threats and cyber 
attacks?
    Mr. Halvorsen. Extremely active. A couple of the things 
that we have done that I can talk about in this forum with the 
Five Eye community,<dagger> we actually established last year a 
CIO Five Eye group that meets physically every 6 months, 
virtually every quarter. Our next meeting is in London, where 
cybersecurity is certainly one of the big topics. We have had 
visits to Israel, exchanging data. That continues.
---------------------------------------------------------------------------
    <dagger> ``Five Eyes'' is an intelligence alliance involving 
Australia, Canada, New Zealand, the United Kingdom, and the United 
States.
---------------------------------------------------------------------------
    I just came back from Korea and Japan, where that was a 
major topic. I can tell you that the NATO partners, Korea, 
Japan, Germany, have all adopted the DOD cybersecurity 
scorecard as the basis for measuring how effective we are doing 
cybersecurity basics across the board, which I think is a big 
breakthrough.
    So we can probably give you some more detail, and we will 
take that for the record, but they are the major things that we 
are doing to improve our information-sharing.
    [The information referred to can be found in the Appendix 
on page 44.]
    Mr. Lamborn. Well, that is good to hear. And do you have 
any recommendations in the budget on maybe making that even 
stronger? Or, I mean, I know you have a good budget that you 
are defending right now, but do you see any room for 
improvement in that area in particular?
    Mr. Halvorsen. You know, I do see room for improvement, but 
I don't think right now that is a money issue for improvement. 
I think it is more of getting all of us aligned to the right 
principles and basics.
    Today we have made good progress within NATO--and as I 
said, Japan and Korea and Germany--there is some other work we 
need to do with other partners.
    I will be in Estonia in June working some of those issues. 
And what I would like to do is when I come back from that, I 
will have a better site picture, is maybe give you some more 
answers on what I think we might need to do to go beyond some 
of our traditional allies.
    Mr. Lamborn. Okay. I appreciate that. I would like to 
follow up on this conversation at another time. Thank you, Mr. 
Chairman.
    I yield back.
    Mr. Wilson. Thank you, Mr. Lamborn. We now proceed to 
Congressman Jim Cooper of Tennessee.
    Mr. Cooper. Thank you, Mr. Chairman. First, the Santa Claus 
question. Both of you mentioned that you would like to have 
more money. How much? And for what?
    Mr. Levine. I would say that as the DCMO, my responsibility 
is finding efficiencies. I am not actually looking for more 
money. The Department is looking for more money. I am trying to 
identify efficiencies within the Department where I can free up 
money so that we can invest more in the long-range science and 
technology programs and force structure and things that we need 
to keep our force ready to go today and ready to go in the 
future. That is where I need more money.
    I would defer to Mr. Halvorsen as to specific IT 
investments.
    Mr. Halvorsen. I think to upgrade some of our legacy 
systems. And I can get back to you with a number on that. And 
to tie back with Peter, I think some investment in the legacy 
systems--and particularly some of the larger both HR [human 
resources] personnel and pay systems--those investments would 
do two things for us.
    One, we would certainly improve security. There are some 
issues we need to fix there. Secondly, I think we could improve 
efficiency, and after we made those investments, I actually 
think the return on investment would be pretty good. But I will 
come back to you with a number, sir.
    [The information referred to was not available at the time 
of printing.]
    Mr. Cooper. Thank you. Now the Scrooge question. Pentagon 
is the least auditable of all government agencies. It has been 
a risk factor for the GAO [Government Accountability Office] 
for 20 years, the number one risk factor. Will your IT work 
help the Pentagon get audited faster?
    Mr. Levine. The answer is yes. Improved business systems, 
improved financial management systems definitely make an 
impact. We are much closer today to being auditable than we 
were 10 years ago. A significant part of that is because of the 
ERP [Enterprise Resource Planning] investment. But there are 
many, many hurdles we have to get over that are not IT, and IT 
can't solve it by itself.
    We have policy issues that we have been kicking down the 
road 10 years that now that we are facing a 2017 deadline, we 
are finally getting people to be serious about and say, hey, 
yeah, we actually have to make those decisions, we have to 
figure out how we are going to go about that.
    So the DCMO co-chairs the governance board, the FIAR 
[Financial Improvement and Audit Readiness] governance board, 
which is responsible for trying to drive the Department toward 
audit with the Comptroller, with Mike McCord. And since I 
arrived at the Department about 10 months ago, we have been 
trying--we have set the Department on a program of identifying 
what our key interim milestones are that we need to hit in 
order to become auditable.
    We have identified a lot of things that should have been 
addressed 5 years ago or 10 years ago, but we are trying to 
chip away at them one at a time, and we think that the deadline 
is extremely constructive in pushing us toward that objective.
    The Department seems to have an infinite ability to kick 
things down the stream and facing a deadline that is 2 years 
away really helps focus the attention.
    Mr. Cooper. Well, some people would say 2017 is next year, 
not 2 years away.
    Mr. Levine. It is October 1, 2017. I guess we can--a year 
and a half is what that is, yes, sir.
    Mr. Cooper. Doesn't sound like you are very optimistic 
about meeting the deadline.
    Mr. Levine. When I came before the Senate Armed Services 
Committee for my nomination hearing about almost exactly a year 
ago, I testified that I had never been confident the Department 
was going to meet the deadline, and I couldn't change my 
position just because I was testifying for confirmation.
    So I can't change my story now. I am skeptical that we will 
have done everything we need to do. But I am going to push as 
hard as I possibly can to get us there.
    Mr. Cooper. Okay, now the long-awaited question of the 
ghost of Christmas past. The Joint Chiefs hack, there was 
apparently somebody who signed on to an e-mail, like the 
equivalent from the Nigerian prince or something. Has that 
person been identified who opened that foolish e-mail? And 
would it help if they were identified, if they not been 
identified previously?
    Mr. Levine. I will say that the people that opened the e-
mail have been identified, and we have looked at the reasons 
why, and in some cases, we did some remediation. In other 
cases, they had followed the right procedures, up to a point, 
and we needed to do some more training. That has been put in 
place to do that, but I would also say that was also one that 
was caught very quickly.
    We had very limited exposure--still would like to do 
better--but the system and when you look at the volume of e-
mail traffic that comes into DOD, how many we get, and the 
number of people that click, great improvement. We are 
certainly holding people accountable to a higher standard now.
    We have signed out the cyber accountability culture 
document that was signed by DEPSECDEF [Deputy Secretary of 
Defense]. Myself, Frank Kendall, and Mike Rogers have signed 
out the accountability procedures document to make it down to 
the individual and command level, so I think we have made 
progress in that area.
    I don't think identifying any more individuals at any more 
level would be helpful right now.
    Mr. Cooper. I see my time has expired, Mr. Chairman.
    Mr. Wilson. Thank you, Mr. Cooper. We now proceed to 
Congresswoman Elise Stefanik, of New York.
    Ms. Stefanik. Thank you, Mr. Chairman, and thank you to the 
panelists for being here today. I have two questions. The first 
one will be quite broad. The second one will be quite specific. 
As you are well aware, the threats to the United States have 
evolved dramatically in the last 10 years. State and non-state 
adversaries have adapted to a new digital environment quite 
well. And it is important that the United States invests in the 
time, training, and infrastructure to counter the whole 
spectrum of cyber threats.
    So as we see in the news, cyber provocation against the DOD 
infrastructure continues to increase, what is your assessment 
of the DOD's ability to counter such intrusions today? And what 
can I tell soldiers that I represent at Fort Drum in my 
district what we are doing to ensure that they are protected? 
And what have we learned about the enemy? And how has that 
changed our approach? That is the first broad question.
    Mr. Halvorsen. Again, I will make some comments on it, but 
we will take that for the record, because I think it is a good 
question and we owe you some better details on that.
    [The information referred to can be found in the Appendix 
on page 44.]
    Mr. Halvorsen. We certainly have improved training across 
the board in the cyber spectrum. The cybersecurity culture 
issue is one that is on top of the Secretary's desk. We meet 
every month on the cybersecurity scorecard, and a part of that 
gets to what is the training of the individuals. The networks 
themselves are much better today. They are not exactly where we 
want them. We have got three major efforts to improve that.
    The first one is, you are probably aware that the Secretary 
has directed that this year we move as much of DOD as 
possible--the ones that are on Windows operating systems--to a 
Windows 10 baseline. I cannot stress the criticality of us 
getting that done.
    Right now, when you try to look at the visibility of the 
networks, while we are making improvements, you are doing that 
across multiple operational systems, multiple baselines. It is 
impossible to do, do well.
    Getting to a single baseline for Windows--and that is about 
80 percent to 85 percent of the DOD--will give us the ability 
to have better visibility. Windows 10 is the first operating 
system that really thought about security right from the 
beginning and has in-built features that we will take advantage 
of.
    It will also allow us to go to the next step, which is how 
do you then start taking and really using cloud computing 
technology to improve your security? So we are positioned to do 
that. We have got things we have to get done, and the first one 
is to get the Windows 10 done.
    The other big initiative is to complete the joint regional 
security stacks. In its simplest forms, what that does is lower 
our footprint. Today, we have got 1,000 points that you can 
come in. When the joint regional security stacks are done, we 
will have less than 100 points. That is a lot easier to defend, 
and we can focus more on it.
    It also stops us from doing our own self-denial attacks, 
which are also--happen when you are trying to keep aligned over 
1,000 different firewalls. We will reduce the firewalls, have 
better overall security and visibility into the networks. That 
is what we are doing at the big end.
    Ms. Stefanik. Okay, so the specific questions are actual 
follow-ups to your answer. When you reference the cybersecurity 
scorecard process, what is the scorecard exactly? Can you get 
into more specifics? Can this information and will this 
information be shared with Congress? Are there plans to expand 
scorecards beyond cybersecurity? And how does a negative 
scorecard rating of a DOD component, what is the consequence of 
that?
    Mr. Halvorsen. Again, we will give you some more details in 
writing, but here is what I can tell you. The scorecard is 
looking at what we have defined right now as basic areas that 
we should be measuring. One of them is, is everybody using a 
secure token to access DOD systems.
    The advantage of that is, is immediate. If you are using 
the token, A, we know exactly who logged in, when they logged 
in, where they are at, and it is a lot harder to fake that 
access. So it is an immediate improvement.
    Ms. Stefanik. Can that information be shared with Congress?
    Mr. Halvorsen. Actually, I am happy to give it to you. We 
have actually shared it with other committees, and I am happy 
to send one over when I get back, the current scorecard.
    Ms. Stefanik. And the results of the scorecards that are 
shared?
    Mr. Halvorsen. The results is right on it. It will show you 
where we are at. We are not where we want to be in all of the 
areas. We are measuring ourselves to extremely high standards. 
One of the things that I just want to say upfront, when you 
look at cyber, you could hit 80 percent and a lot of people 
would think that would be good. In cyber, that is not good 
enough.
    So when you see that we are in yellow and, in some cases, 
red, it is because we are trying to get above in almost every 
category 95 percent to be green.
    Ms. Stefanik. And the last question is, you talked about 
the Department's plans to move to the Windows 10 operating 
system with a mandate to so by a certain date. What is the cost 
of that transition?
    Mr. Halvorsen. I don't know the exact cost yet. We will get 
that to you. But what I could tell you, the cost not to do that 
would be in the billions.
    [The information referred to can be found in the Appendix 
on page 45.]
    Ms. Stefanik. Great, I would look forward to getting more 
of that in writing afterwards. I yield back.
    Mr. Wilson. And thank you, Congresswoman Stefanik. We now 
proceed to Congressman Pete Aguilar of California.
    Mr. Aguilar. Thank you, Mr. Chairman. Mr. Halvorsen, can 
you talk to me broadly about in your testimony you talk about 
cloud computing. Where will cloud computing be in 5 years and 
in 10 years?
    Mr. Halvorsen. In 5 years, I am hopeful that we will be in 
an almost complete virtual cloud environment, and cloud defined 
this way. We will have private clouds, which are completely 
private within segments of DOD. We will have private clouds 
that are just DOD, you know, inside it. And we will have 
private clouds that are DOD and other parts of the Federal 
Government. And then we will have hybrid public clouds.
    Because of the size of DOD and the Federal Government, we 
ought to be able to move into where we would have government 
hybrid clouds hosted in commercial centers as opposed to some 
of the things I talked about earlier, would be on premise, that 
would give us the best combination of mission security and 
value.
    Mr. Aguilar. Is that what you mean when you talk about in 
page 3 of your testimony mission partner environment, when you 
are talking about commercially accessible, reconfigurable, and 
secured data that can be shared with commanders?
    Mr. Halvorsen. A little broader than that. The mission 
partner environment would certainly use cloud technology, but 
in that part of the testimony what I am really talking about is 
how we would be able to support our COCOM [combatant command] 
commanders as they partner with both traditional and non-
traditional allies to support whatever mission it is, to be 
able to stand up virtual networks on the fly, to be able to do 
that both at a secure level, at a speed level that we need, and 
then to keep it fiscally responsible.
    Mr. Aguilar. Can you talk a little bit about how you 
envision that working and what our stakeholders and coalition 
partners, what their role in that would be?
    Mr. Halvorsen. So as we can move to cloud technology, one 
of the things that we have got to recognize, we have got to 
get--our MPE [mission partner environment] is going to have to 
be commercial-based. We are not going to be able to do this at, 
say, a U.S.-only based system. A, other pieces of our allies 
couldn't afford that, and it is not what they are going to 
agree to do.
    So basing this on a commercial set of technology that also 
uses commercial classified technology, would allow us to, in 
the cloud, put together a virtual network that--let's say we 
had a--this is a really good example, and I think it is in the 
testimony--and we have done this--let's say we had a natural 
disaster that had allies now--like the Chinese, the Cubans, us, 
they are not traditional allies. We could actually stand up a 
network, once we get some of the technologies in place, that 
would allow data to be shared.
    And let's say we want to share data with China, we want to 
share data with Cuba, but not exactly the same data. We could 
do that on a network with the right protections to protect the 
data that we need using almost commercially available 
technology today. There is a few pieces that have to be done, 
but I am--no doubt they will be done by the end of this year.
    Mr. Aguilar. Well, look forward to seeing that development 
and our discussion about that moving forward. Thank you so 
much.
    I yield back, Mr. Chairman.
    Mr. Wilson. Thank you, Congressman Aguilar. We now proceed 
to Congressman Brad Ashford, all the way from Nebraska.
    Mr. Ashford. It is a long trip every morning. Thank you, 
Mr. Chairman, being able to get here.
    Congressman Langevin raised the issue that I am trying to 
understand further. And your answers were good. I want to 
further understand it, though, a little bit, because we talk a 
lot about employee exchanges with the private sector and the 
need for additional authorities to do that.
    It seems to me it is a critical part of the plan going 
forward and with the talent out there and the demands on the 
budget and being able to bring people in. And you have, 
Congressman Langevin, hit it 100 percent, and you did, as well, 
in your answers.
    What do we have to do in order to--I mean, it seems to me 
that is something we should be able to move on. And what sort 
of authorities would we need in order to do that?
    Mr. Halvorsen. Again, I would like to come back on record--
here is what I would tell you I think the first area. Today 
there are some statutes that actually prohibit us from giving 
decision authority to those type of positions. While we 
certainly want to protect them and make sure that the 
government is in the end responsible for the decision, if I 
have got somebody industry--so let's take cloud.
    The best cloud engineers today are not in the government. 
They are not. We have some really good ones, but the best ones 
today are in industry. We ought to be able to get some of those 
in. I ought to be able to assign one of them, say, okay, you 
are the lead cloud engineer for this year that you are doing 
this work with us, and give them the authority to make 
decisions, and with some oversight, expend dollars.
    Today, under the current authorities, that is hard to do. I 
need to do some work to figure out what that should look like, 
and I will come back to you by the summer, if that is good, 
with some recommendations.
    [The information referred to can be found in the Appendix 
on page 44.]
    Mr. Ashford. That is really all I have. That is extremely 
helpful. It seems to me that there are areas where, as you 
suggest, the private sector or the nongovernmental sector have 
those expertise. So thank you, Mr. Chairman. That is all I 
have.
    Mr. Wilson. And thank you, Congressman Ashford. And due to 
how important these issues are, we will proceed with a second 
round.
    And, Mr. Levine, DOD doesn't have a stellar track record in 
deploying business IT systems. What recommendations would you 
have to make to improve our abilities to deploy business 
systems? And, secondly, how can we improve or shape the 
workforce to better configure, deploy, and manage these 
business systems?
    Mr. Levine. First, we don't just not have a stellar record. 
We have a horrendous record of deploying business systems. I 
think that of all the things that we do badly, that is one of 
the ones we do the worst.
    So there are a number of things that we need to do on our 
side of the river to do better. One of the things that we need 
to do is to recognize the business systems themselves are not 
going to solve our problems, that what we need to look at is 
the processes that we are automating, so that if you try to 
automate an old process without looking at it and figuring out 
how it works, you are doomed to failure.
    We have tried many times to buy an off-the-shelf system and 
then said to the users of the system--well, have the users of 
the system come in and tell us, well, that is not exactly the 
data we want. We want this other data, because that is what we 
have actually used, and we start tearing apart the guts of an 
off-the-shelf system. And before you know it, we have spent 
five times as much to re-engineer the system and to rebuild the 
system as the cost of the system itself.
    We have to control our own appetite, and that is something 
that we are working on within the Department. In terms of what 
you could do to help us--so one thing that I would say that you 
could do to help us, that I hope you will think about, is as we 
look at the process that we have to go through for business 
systems, right now, as I said, we are going to try to work with 
the acquisition community to re-engineer that, because we have 
a system where we go through an investment review process, we 
identify a potential solution, and it may be like a $20 million 
fix to a problem where you do a tinker with an existing system.
    We then have to throw it over the threshold, over the 
transom to the acquisition community that may set up a program 
office that in itself would cost $20 million, and they will 
come to us with a solution which is, let's build a whole new 
system from scratch. Well, that is crazy.
    So we are going to try to re-engineer that within the 
Department. There may be places where we come to you for 
assistance in doing that re-engineering. And there is one place 
in particular I would point to, which is right now for what I 
presume are historic reasons, we have one set of thresholds for 
what are called major defense acquisition programs [MDAPs].
    We have another set of thresholds for what are called major 
automated information systems [MAIS] programs. MDAPs and 
MAIS's. The MAIS thresholds are way, way lower, an order of--I 
don't know, a couple of orders of magnitude lower than the 
thresholds for MDAPs, but we treat them as the same thing.
    What that means is, that when we have an IT--a business 
system investment, we trigger a process on the acquisition side 
which is as big and as clumsy as the process we have on the 
acquisition side when we are buying an aircraft carrier or a 
fighter aircraft or something like that. And if you are buying 
a business system, I am not sure that makes sense.
    And so I think if you would look at where you treat MAIS 
systems and MDAPs the same and whether you need to treat them 
in the same way in legislation, I think that is something 
constructive that could help us in streamlining our own 
internal processes.
    Mr. Wilson. Well, thank you for being so candid. And 
additionally, too, hey, technology changes overnight, and so I 
know it is an extraordinary challenge, but we appreciate both 
of you on what you are doing. Also, I am grateful--Mr. 
Halvorsen, I notice your association with Rotary International, 
your service as a Paul Harris fellow. I am happy to be with 
you.
    So a question, Mr. Halvorsen. Spectrum is a vital resource 
for the Department. However, it is also one that we are in 
increasing competition with the commercial sector. What 
challenges do you see over the next 10 years when it comes to 
the DOD's use of spectrum? What recommendations would you make 
to improve the responsiveness of the regulatory process to 
including national security concerns and economic priorities?
    Mr. Halvorsen. So I think today we are in a good spot, hard 
work with spectrum. We did well with the last auction. And the 
money is there to change where DOD can move and share spectrum. 
What I worry about right now is that the private demand for 
spectrum is going to exceed our ability to keep pace. And we 
could, if we are not careful, put some national systems at 
risk.
    Some of this takes time. And in this business, I get that 
time is really valuable and it is money, but there is a 
physical limitation to how fast we can move the DOD systems 
either into the ability to share spectrum or out of some 
spectrum. And I worry--maybe because we are victims of our own 
success--we have done very well, and the legislation that has 
been written and the sharing has all worked to date.
    But what I hear from industry right now is, well, we want 
to go faster. And I don't know that we can go much faster today 
on how we look at spectrum, make the decisions where we can get 
out, and how we would share.
    I would also tell you that while I think industry is 
starting to look at making their own investments in helping us 
share, they are just starting that.
    And I think one of the things we need to look at is, I am 
happy to be measured on how DOD is making investments to 
share--and we ought to think about some measurements that we 
would give industry to say, how are you doing in making the 
investments to--your contributions to helping us get to that 
state?
    Mr. Wilson. Well, thank you very much. And now Ranking 
Member Jim Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Again, thanks to our 
witnesses for being here.
    So yesterday I had the opportunity to have a sit-down with 
Deputy National Security Adviser Avril Haines and the Homeland 
Security Adviser, Lisa Monaco, to discuss the Comprehensive 
National Cybersecurity Initiative [CNCI]. And I have certainly 
been an advocate for many of the proposals under the CNCI for 
some time, and specifically the appointment of an individual at 
the executive level to oversee Federal cybersecurity 
enterprise.
    And it is one of the problems that I think previously on 
the .gov side they really don't have anybody in charge with 
both policy and budgetary authority that can reach across 
government and compel departments and agencies to do what they 
need to do in cyber. Hence, you have things like the OPM breach 
that happened.
    And I think DOD, by the way, is doing a much better job in 
terms of defending the .mil network. And all of that, as 
difficult and challenging as it is, it is important. And they 
are doing good work. But can you describe how DOD fits into the 
overall CNAP [Cybersecurity National Action Plan], as it is 
called? And more specifically, how DOD will interact with the 
new individual, the Federal Chief Information Security Officer 
who will be appointed to coordinate cybersecurity policies and 
activities?
    Mr. Halvorsen. Today, and even before the legislation, we 
partner extensively with the Federal CIO, Tony Scott. I mean, 
Tony when he came in brought some new ideas to the Federal 
side. We are certainly supportive of that, and we will continue 
to do so.
    As the areas that the Federal Government is looking at are 
applicable to DOD, we will play, and we will play hard, and we 
will support those. We will continue to advise Tony and the new 
individual that is appointed on where we think there are things 
that DOD is doing that should be applied to the rest of the 
Federal Government, and we will take those things that are 
really working and apply them within DOD.
    I think the establishment of an individual to do that is 
key to success inside the rest of the Federal Government. And I 
think there are some opportunities for us to really set that 
tone.
    One of them is, as we rebuild the NBIB and we look at the 
lessons learned, I know Tony and I have agreed today that we 
ought to take those lessons learned and apply them across the 
Federal Government at any place that we see that that is 
applicable, we will do that.
    Mr. Langevin. Okay. What progress has DOD made on cloud 
computing, specifically integration of capabilities provided by 
essential service providers, and are there enough certified to 
create a competitive field? And how are security concerns being 
addressed?
    Mr. Halvorsen. As for the progress, two things I think I 
would like to point. We say a lot of times that DOD is behind 
in cloud. So I wanted to really know if that was true. So I 
have asked my staff and some outside to take a look at, how 
does DOD compare in the use of cloud with other Fortune 50 or 
peer competitors?
    We are actually slightly ahead of most of the Fortune 50 in 
the use of cloud. We are now embarking on doing more, but I 
don't think DOD is behind. If you look particularly at the 
financial industry, which has some very strong security 
similarities to us, they have done exactly what we have done. 
They take some of their public-facing stuff and they put it 
into cloud. We have done that with good success.
    The next two things that we are doing--and we have now 
gotten certifications, enough of them, to start being 
competitive--is to look at how we bring industry into on-
premise cloud offerings. We do that right now very limitedly 
through the NGEN [Next Generation Enterprise Network] contract 
that the Navy put in place, where actually HP [Hewlett-Packard] 
is running Navy data centers, to include Navy data centers at 
the secure level, on-prem [premises], for the Navy.
    We are using that model, and we are going to expand that 
across the rest of DOD.
    I will have a couple RFIs [requests for information] out 
here in the next month. We have a couple contracts that we are 
going to let that will allow four commercial entities to come 
in at the Level 4 level in certification, which is right below 
the classified data. And we have some work being done to allow 
more companies to partake in the classified space, too. So I 
actually think we are making good progress. We have got to stay 
on top of that.
    I hope this summer, if the Windows 10 thing goes well, the 
next announcement that we will make will be that DOD has 
decided to go to a more complete cloud environment, similar 
to--and I just used this as an example--this is not a 
decision--but similar to what a Windows 365 cloud environment 
would do. You have to get to that next phase to really take 
full advantage of the cloud across the board.
    Mr. Langevin. Thank you. I just--I know my time is expired, 
but I will say, I hope along with all of this we are paying 
maximum attention to the security of the cloud. It does still 
concern me that, you know, we have the crown jewels in some 
ways all in one place. And my colleague, Jim Cooper, likes to 
refer to the cloud as the acronym for Chinese Love Our Uploaded 
Data. And so security can't be tight enough, as far as I am 
concerned.
    Mr. Halvorsen. So, Mr. Chairman, can I take one more 
minute? We agree. And one of the reasons that we are where we 
are with cloud, it is the same reason the financial industry is 
where it is with cloud.
    We do have some things we have to make sure, and security 
is right. And one of them is, how do you achieve virtual 
separation so that you don't get the effect of everything being 
loaded in one spot and it can be exfiltrated? And if it does 
get penetrated, how do you quickly shut that off and isolate 
it? And we are spending a lot of time working with the industry 
experts in how to do that.
    Mr. Langevin. Thank you. Thank you very much.
    Mr. Wilson. Thank you, Mr. Langevin, and thank you for your 
expertise in acronyms. We now proceed to Congresswoman Elise 
Stefanik, of New York.
    Ms. Stefanik. Thanks, Mr. Chairman. My final question 
relates to the personnel side of this issue. So one of the 
challenges that I think we clearly face is ensuring that our 
cyber, technical, and workforce capabilities can scale 
economically. And a significant issue for the industry is the 
clearance process.
    Is there any thought being given to an approach for fast-
tracking clearance processing for critical skills position, 
such as computer network operations programmers, to better 
enable effective support as your mission requirements expand?
    Mr. Levine. We have a problem with security clearances 
across the Department of Defense and across the industry. And 
the problem with prioritizing is how many competing priorities 
we have. So, yes, that would be a priority, but I can't look 
across the Department of Defense and say we don't have a dozen 
other priorities that are at least equal to that. I mean, the 
number of priorities we have is extraordinary.
    The security clearance problem is a problem not only for IT 
professionals, but also for contractors who are working on 
weapons systems. It is a problem for the hiring process within 
the Department of Defense.
    That is why we are working to re-engineer our internal 
processes and why we hope that we will be allowed to help re-
engineer some of the OPM processes, as well, as we go forward 
with this. One of the things that we are very hopeful for is 
continuous evaluation as a tool that will help speed things up 
and lower the burdens.
    But I have got to say, right now we are runnning continuous 
evaluation as a pilot program, which means we are running it in 
addition to all the other requirements. And we are hoping that 
we can prove it out so it can be a substitute for some of the 
requirements that we are going to expedite. We are not there 
yet.
    But it is a hard question, not just for this area, and I 
don't think the Department can afford to solve it by carving 
off one universe and treating them better, because the other 
universes of people we need to get through the security 
clearance process are also vital to our national security.
    Ms. Stefanik. Mr. Halvorsen, do you have anything to add?
    Mr. Halvorsen. No, I think Peter summed that up very well.
    Ms. Stefanik. Okay, thank you very much. I yield back.
    Mr. Wilson. And thank you, Congresswoman Stefanik, for your 
insight, too. There being no further, we are adjourned.
    [Whereupon, at 4:38 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             March 22, 2016
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 22, 2016

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 22, 2016

=======================================================================

      

            RESPONSE TO QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Halvorsen. The funds for NBIB in DISA's FY17 budget and out 
year plans were a top line add. The FY17 President's Budget submission 
requested $20M of O&M and $75M of RDT&E. The initial out year funding 
profile is presented in the following table:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    No additional funds from outside of this line are expected to 
be spent on DOD's effort to support the new IT system. In FY16, OPM 
will reimburse DOD for initial pre-acquisition prototyping efforts and 
legacy system support. Funding for these efforts is in the range of 
$5M.
    Forty additional FTEs were added to DISA for the Background 
Investigations Information Technology (IT) System based on an analogous 
estimate of the number of FTEs required to architect, design, acquire, 
implement and sustain a new start IT system. The estimate was generated 
using a review and analysis of historical programs with the closest 
scopes and scales of capabilities, adjusted for the high level of 
concurrency necessary for the rapid delivery of operational capability.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The organization structure, specific job descriptions/role, and 
position grades have not yet been determined and will be confirmed by 
July as we perform the pre-acquisition planning for the IT system.
    The timeline for delivery of the IT system is in the planning 
phase. A schedule will be developed as part of the pre-Acquisition 
planning that is currently underway with an expectation to be approved 
as part of an overall Acquisition Strategy in October 2017.
    The DOD CIO is solely responsible for building and maintaining the 
IT system based on NBIB requirements. The CIO is advised by the 
Director of OPM and the Federal CIO as part of the NBIB IT Governance 
Council.   [See page 7.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. ASHFORD
    Mr. Halvorsen. The Department believes the NDAA FY17 House & Senate 
provisions related to private industry exchanges and ITEP provide the 
Department the flexibilities needed. We appreciate the support of 
Congress on this matter.   [See page 14.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. LAMBORN
    Mr. Halvorsen. The DOD CIO International engagement efforts have 
grown exponentially in the last several years as cyber has emerged as a 
domain. These objectives align with regional cooperation, information 
sharing, and interoperability initiatives. Working closely with 
OUSD(P), the Joint Staff, NSA, DISA, US STRATCOM, US CYBERCOM and 
Regional Combatant Commands, and the interagency, DOD CIO has 
established enduring and lasting relationships focused on increased 
information sharing, promoting foreign disclosure and release, and 
enhancing communication and collaboration with our allies and partners. 
DOD CIO led efforts to continue key relationships with the Five Eye 
(FVEY) partners through the establishment of coordination groups such 
as the Defense CIO Forum, sharing information and developing 
mitigations on key cyber issues such as access control, identity 
management, supply chain security, and secure mobility. Successes in 
other FVEY fora include information sharing at the classified and 
unclassified level through the use of U.S. issued FVEY PKI 
certificates, and exercising incident response information sharing. DOD 
CIO continues the critical work of fostering objectives of regional 
cooperation, information sharing, and interoperability across North 
Atlantic Treaty Organization (NATO), Allies, and Partners. Additional 
key focus areas include:
    <bullet>  Cybersecurity Posture of NATO: Align security initiatives 
with NATO mission objectives; ensure that NATO information assets, 
technologies and data are adequately protected and that NATO's CS 
workforce is highly skilled and capable.
    <bullet>  Secure Interoperability in Coalition Operations: Ensure 
the secure interoperability of shared systems between and among the 
U.S. DOD and coalition partners; identify shared systems and apply the 
NIST RMF, including developing baselines. Continue development of the 
Mission Partner Environment (MPE) and continue exercising federated 
environments with partners.
    <bullet>  Cyberspace Workforce Development: Engage in security 
cooperation activities that assist coalition partners in developing 
strategies and policies to build skilled and capable CS workforces. For 
example recently extended training and exercise participation to 
partners.
    <bullet>  Cybersecurity Posture of Critical Infrastructure owned by 
Partner Nations: Engage in activities that assist collation partners in 
developing strong CS postures of their national critical infrastructure 
on which DOD missions may depend, including identifying critical 
systems and applying the security policies.
    <bullet>  Asia Pacific Engagements: Longstanding regular senior 
allied and partner nation consultations with DOD CIO counterparts in 
Japan, the Republic of Korea, and Singapore to promote a wide range of 
information exchange, sharing of best practices, and technical 
discussions on improving interoperability.   [See page 8.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MS. STEFANIK
    Q1. What is your assessment of the DOD's ability to counter cyber 
threats?
    Mr. Halvorsen. The DOD continues to improve its ability to secure 
its information systems and networks from adversarial activity. In 
addition to initiating the Cybersecurity Scorecard, transitioning to 
Windows 10, and implementing the Joint Regional Security Stacks, the 
Department is also engaged in protecting our Internet-facing systems, 
identifying key terrain, and integrating cybersecurity into our 
evaluation of readiness. In order to ensure the protection of our 
service members, civilians, contractors, and other DOD personnel, the 
Department is also engaged in an effort to secure all of its systems 
that store personally identifiable information. In combination with 
other ongoing orders and directives, the Department will continue to 
assess and engage in any areas where we can improve our cybersecurity.   
[See page 11.]
    Q2. What can she tell Fort Drum Soldiers what the Department is 
doing to ensure that are protected?
    Mr. Halvorsen. As noted above, the Department of Defense is engaged 
in multiple enterprise-wide efforts to counter cyberspace adversaries. 
The interconnected nature of DOD systems means that we aim to enhance 
the cybersecurity of the Department as a whole. We recognize that the 
security of information systems at one DOD component may rely on the 
security of information systems at another. Cybersecurity orders, 
directives, and policies apply across the Department, including the 
information systems at Fort Drum. The Department will continue to 
ensure the protection of their information, as well as the information 
of all our other personnel.   [See page 11.]
    Q3. What have we learned about the enemy?
    Mr. Halvorsen. The DOD faces a number of cyberspace adversaries 
ranging from malicious individuals, terrorist organizations, and 
nation-states with a wide variety of skill levels, capabilities, and 
resources. These adversaries aim to penetrate our information systems 
and networks for a number of reasons, including to steal sensitive data 
or to affect our ability to operate. We have learned that many of these 
same actors also target a range of other organizations, including the 
Federal Government, the Defense Industrial Base, and private sector 
businesses.   [See page 11.]
    Q4. How has that changed our approach?
    Mr. Halvorsen. The Department actively understands the types of 
cyber actors that target the DOD. The DOD Cyber Strategy released in 
April 2015 is driving how the Department is adapting its cyber forces 
to respond to ever-evolving threats. The strategy guides multiple 
cybersecurity lines of effort across the Department, including the 
development of 133 cyber mission force teams by 2018 to strengthen our 
cyber defense and deterrence postures. The DOD also recognizes the 
critical need to maintain and improve its proactive, progressive, and 
coordinated approach for detecting and responding to cyber events and 
incidents. The DOD's Cyber Incident Handling Program ensures an 
integrated capability to continually improve the DOD's ability to 
rapidly identify and respond to cyber incidents that adversely affect 
the DOD Information Network. It does so in a way that is consistent, 
repeatable, quality driven, measureable, and understood across DOD 
organizations. Lastly, to protect the interests of national security, 
cyber incidents must be coordinated among and across DOD organizations 
and sources outside the Department, including law enforcement, the 
intelligence community, and critical infrastructure partners. For 
example, the DOD interfaces with the Department of Homeland Security on 
major cyber vulnerabilities via the Cyber Collaboration, Assessment, 
and Response inter-agency sessions led by the National Cybersecurity 
and Communications Integration Center. The Department also works 
closely with the Defense Industrial Base to enhance their cybersecurity 
capabilities by sharing unclassified and classified information on 
cyber threats.   [See page 11.]
    Mr. Halvorsen. DOD Components maintain ``software assurance'' (SA) 
on licenses for the Microsoft Windows operating system. In addition to 
the product support and client access licenses that SA provides, SA 
also includes the right to upgrade to the latest software versions at 
no additional cost. Therefore, it is expected that DOD Components will 
be able to upgrade to the Windows 10 operating system with little or no 
additional expenditures for the operating system software.   [See page 
12.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 22, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. What is the Defense Department strategy for increasing 
use of mobility tools, as well as increasing mobile security? What does 
the DOD intend to do with regard to Bring Your Own Device (BYOD) and 
BYOD policy?
    Mr. Halvorsen. DOD is already integrating mobility tools in several 
areas including developing Geospatial Intelligence logistics, and 
targeting applications. In addition, DOD is establishing Wi-Fi networks 
to improve coverage and performance. These investments enable improved 
mobility capabilities for deployment across DOD's enterprise.
    DOD is increasing mobile security by migrating to Secure Hash 
Algorithm 2 (SHA-2), developing a mobile credentialing solution that 
derives certificates from a DOD user's Common Access Card (CAC), and 
streamlining the security approval process for devices and software. 
Following nationally recognized practices enhances security, commercial 
mobile products must be validated in accordance with National 
Information Assurance Partnership (NIAP) Protection Profiles (PP) for 
all parts of the mobile ecosystem (e.g., mobile devices, mobile device 
management (MDM), mobile apps, wireless infrastructure). Commercial 
mobile products that process classified information must be approved by 
the NSA's Commercial Solutions for Classified (CSfC) program.
    DOD is continuing to evaluate different private sector proposals to 
determine if they satisfy Federal security and legal requirements. 
Initially, a low risk approach of a BYOD implementation would make the 
most sense for low threat unclassified environments where there would 
be minimal impact if a data compromise did occur, such as training and 
student environments. The Department of Navy is currently piloting 
BYOD. DOD will evaluate lessons learned to determine adoption across 
the Department.
    Mr. Wilson. What activities does the Department have underway to 
improve the agility of its spectrum-dependent systems? Do you see 
commensurate activity in the commercial sector?
    Mr. Halvorsen. The complex spectrum environment and evolving 
threats that warfighters face compel DOD to constantly evaluate a broad 
array of technology advancements to meet mission requirements. The 
Department continues to foster efforts, throughout the Military 
Departments, DARPA, and OSD, that improve agility for DOD's spectrum-
dependent systems, which also help military users share better with 
other spectrum users.
    The Department's continued investment in its Electromagnetic 
Spectrum Strategy is geared toward addressing these needs. The 
Department's leadership in other efforts such as the National Advanced 
Spectrum and Communications Test Network, under the auspices of the 
Commerce Department, its own new Spectrum Access Research and 
Development Program, as well as the collaborative effort via the 
National Spectrum Consortium are enabling complementary initiatives to 
identify and foster development of innovative technologies and 
techniques for greater agility and flexibility of DOD capabilities, but 
also improve spectrum sharing and access.
    With regard to commensurate activity in the commercial sector, DOD 
believes that industry is starting to look at making investments to 
help in their own ability to share with DOD, but they are just at the 
beginning of that process. As expected of DOD, industry would also need 
to be held accountable for their own investments in spectrum sharing 
technologies and how they are contributing toward improved spectrum 
access. The Department is hopeful that with balanced investment and 
commitment by agencies and the commercial sector, these efforts will 
bear lasting results in enabling flexible access to all users in all 
spectrum bands.
    Mr. Wilson. What suggestions do you have to improve coordination 
and deconfliction for sharing spectrum bands with commercial entities?
    Mr. Halvorsen. It is important to recognize the existing spectrum 
management and governance mechanisms through the national regulators, 
i.e., NTIA and the FCC regulatory processes, continue to effectively 
facilitate shared use of spectrum among Federal users as well as 
sharing between Federal and non-Federal users (i.e., including 
commercial entities). Streamlined coordination and deconfliction 
processes are critical for successful sharing once a national policy 
decision is made to implement sharing in a band, noting that sharing 
requirements differ depending on the band and use scenarios. 
Technology, sound engineering, balanced policy and regulation, and 
enforcement are keys tenets that enable successful sharing. Automated 
coordination and deconfliction capabilities play a critical role, among 
other necessary tools (e.g., direct human coordination for continued or 
iterative risk and tradeoff evaluation) for sharing spectrum bands with 
commercial entities. Continued investment and improvements to 
automation capabilities would contribute to improved coordination and 
deconfliction.
    Mr. Wilson. You stated in your testimony that DOD shares the same 
concerns with security in a commercial cloud environment as the 
financial industry and that the challenge with off-premise commercial 
cloud is ``how do you achieve virtual separation in the cloud so that 
you don't get the effect of everything loaded in the one spot where it 
can be removed, and if it does get infiltrated, how do we immediately 
shut that off and isolate it?'' How have you worked with the leading 
commercial cloud providers to better understand the security mechanisms 
they use to achieve virtual isolation or physical separation in their 
commercial offerings?
    Mr. Halvorsen. DOD CIO continues to collaborate with industry 
through the on-going updates to the DOD Cloud Computing Security 
Requirements Guide and cybersecurity assessments in support of DOD and 
FedRAMP provisional authorizations.
    Identifying and understanding the threats in a multi-tenant cloud 
environment remain an on-going challenge. Virtual separations rely on 
the vendor's software to protect one customer from both malicious 
attacks and unintentional impacts from other customers. While some 
vendors have been willing to share information on their mechanism 
supporting virtual separation, other vendors have been reluctant to 
share detailed information as it represents the vendor's sensitive 
intellectual property. Even when the details are shared, fully 
evaluating these solutions is a significant challenge as each vendor 
implements their own, proprietary solutions.
    In addition to the software itself, weaknesses in the software's 
configuration and on-going management can also create vulnerabilities. 
When evaluating multi-tenant cloud services, the Department closely 
evaluates the vendor's processes for configuration and operations 
management. All of these factors are taken into account when issuing a 
provisional authorization at a particular impact-level. Through the 
Cloud Computing Security Requirements Guide, the Department has 
implemented a risk management approach that allows Components to match 
the security and cost of specific cloud services to their specific 
cybersecurity needs.
    Mr. Wilson. We understand that the Marine Corps has implemented a 
successful ``Comply-to-Connect'' program that has helped it increase 
its compliance during network inspection reviews. a. How are those 
lessons being applied throughout the Department? b. Are requirements 
for this Marine Corps system reflected in enterprise requirements for 
network security? c. Are those requirements being integrated into 
existing programs, like the Host Based Security System, or planned 
future network defense tools?
    Mr. Halvorsen. Comply-to-Connect (C2C) is a framework addressing 
several key functions: network access control, deliberate and secure 
orchestration with other cybersecurity tools (such as vulnerability 
scanners, software patching tools, and trouble-ticket generation tools) 
and continuous reporting for the purpose of managing risk. C2C 
satisfies the asset management/asset detection problem and increases 
the efficiency by which technical personnel are able to make decisions 
as to whether an asset has `complied' with the local enclave/network's 
security policy to initially connect and remained connect to the 
network. C2C closes the asset management/asset detection gap in the 
Department's Information Security Continuous Monitoring (ISCM) Program.
    The US Marine Corps has successfully implemented C2C as part of a 
three-year regional effort covering 3,000 end-points at Camp Lejeune 
NC. During that period, the effort enabled USMC to meet the objectives 
of DOD Command Cyber Readiness Inspections (CCRI) with a 90% compliance 
rate when Marine Corps White Teams conducted a `no notice' pre-CCRI 
inspection; and, 93% compliance rate during regularly scheduled 
inspections executed by DISA. The Marine Corps has successfully enabled 
the orchestration features of the C2C tools to automate the on-boarding 
process of new assets ``out of the box,'' to scan and remediate 
vulnerabilities upon discovery, harden the asset through integration 
with the Host Based Security System, and register systems into the 
network security information and event management tool (SIEM). These 
major muscle movements, in most cases, were executed with minimal touch 
labor.
    The Marine Corps has recently formally validated C2C as a Service-
wide requirement and will implement a wider-pilot across Marine Corps 
assets in the National Capitol Region in FY16. Eventually, the Marine 
Corps will implement C2C globally on all Service assets. Comply-to-
Connect is endorsed by the Enterprise Cybersecurity Computer Network 
Defense Senior Steering Group (ESSG). The ESSG is tracking C2C 
implementation across several Combatant Command, Service and Agency 
components. The ESSG has directed the development of a Comply-to-
Connect concept of operations with a guideline to standardize 
implementation across component C2C implementations. Department 
discussions consider C2C as an enhancement to overall cybersecurity 
across DOD enclaves and networks. The full scope of C2C capabilities 
have not yet been decomposed into an operational set of requirements. 
C2C requirements will be considered as part of the Next Generation End 
Point security strategy and future network defense tools as the 
Department moves toward assisted automation.
    Mr. Wilson. What do you see as the major challenges to improving 
the management of the Department of Defense? Do you have the business 
intelligence and business analytics capabilities to provide the same 
type of support to the Secretary and Deputy Secretary that any CEO in 
the private sector would have access to?
    Mr. Levine. The major challenges to improving management of the 
Department of Defense are threefold. First, the Department is working 
toward getting the employees at all levels from senior management to 
worker to understand that there remain ample opportunities for shared, 
standard processes and procedures that cut across component boundaries. 
This is particularly true for support activities within the Department. 
Second, the Department must continue to work with external stakeholders 
such as veteran support organizations; unions; the White House; and 
Congress to allow new approaches to these support activities, even if 
it means changing the structures and processes those stakeholders 
currently understand and are comfortable with. Finally, in order to 
provide a basis for both the internal and external engagements, the 
Department must have a reasonable set of performance measures that show 
both how the job is being performed today, but also shows at what cost 
the job is accomplished.
    The assessment above leads directly to the answer to the second 
question. The Department has a robust set of performance information 
that it can draw upon to make decisions. The DCMO is working with the 
staff to make this information more readily visible to the senior 
leadership. For example, the DCMO just provided a detailed progress 
report on the various efficiency initiatives that Secretary Carter 
approved in our plans for FY17-20. The DCMO also supported a detailed, 
performance-based report on how the Department is doing on making 
progress toward audit readiness. Both these reviews were done with 
military department Under Secretaries; service vice chiefs of staff; 
the OSD Under Secretaries; commanders of combatant commands; and the 
Deputy Secretary of Defense and Vice Chairman, Joint Chiefs of Staff. 
Comparing to what a CEO in private sector has accesss to, the 
Department needs to improve these measures by providing a better means 
to measure how much it costs the Department to achieve the performance 
outcomes. The Department is working to that end. In fact, achieving an 
auditable condition will help us move in the direction of measures that 
show outcomes per dollar spent or per person involved.
    Mr. Wilson. What are you doing to improve the quality of data 
senior leaders have and use for management of the Department?
    Mr. Levine. The DCMO has been working with the Joint Staff and OSD 
components to identify performance measures that better describe the 
major initiatives the Secretary and Deputy Secretary have set for the 
Department. The DCMO will then use the Deputy's Management Advisory 
Group (DMAG) to present focused progress reports based on those 
measures to the military department Under Secretaries and Vice Chiefs; 
the OSD Under Secretaries; and the Deputy Secretary of Defense and Vice 
Chairman, Joint Chiefs of Staff. The DCMO and CIO just presented 
detailed progress status on the various efficiency initiatives approved 
by Secretary Carter for the FY17-20 period, including measured updates 
on major headquarters efficiencies; services contracts efficiencies; 
defense retail; and information technology efficiencies. Working with 
the OSD Comptroller, we also provided data on Departmental progress 
toward achieving audit readiness. DCMO is still working with Joint 
Staff to ensure that progress on readiness is presented and reviewed 
regularly to the same group.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Mr. Halverson, the Defense Threat Reduction Agency is 
conducting research & development and prototyping for a Countering 
Weapons of Mass Destruction (CWMD) Situational Awareness Information 
System utilizing a cloud-based architecture called Constellation. 
Constellation is intended to provide an information sharing platform 
for the Department of Defense, interagency and international users to 
be deployed on NIPRNET, SIPRNET, SUN NET and JWICS networks using 
cross-domain solutions to transfer data across security domains.
    What is the role of the Chief Information Officer and Defense 
Information Systems Agency in Constellation research, development and 
prototyping? Specifically, what was the role in establishing a security 
plan to achieve an accredited cross-domain solution, including security 
milestones and review of proposed security architecture? Has this 
effort been reviewed in order to determine if architecture elements and 
applications could be met with existing capabilities, to include 
computing tools and architectures, or those already being developed? If 
so, please describe the review and unique capability gaps identified.
    Mr. Halvorsen. The Constellation program is presently in the 
formative stages of development and prototyping activities needed to 
identify and mature information technology capabilities to meet CWMD 
Situational Awareness requirements
    DISA and the DTRA Constellation program office are collaborating 
via the TCRI (Tactical Cloud Reference Implementation) community since 
the core of Constellation's architecture is DISA's Big Data Platform 
(BDP), a component of the TCRI.
    The Constellation program will eventually require the capability to 
move data across multiple security domains and DTRA intends to use 
existing, accredited cross-domain solutions to meet this requirements. 
DTRA will not develop a new cross-domain solution. The DTRA program 
office is collaborating with the Defense Intelligence Agency (DIA) 
Enterprise Cross Domain Services (ECDS) to meet DOD Instruction 8540.01 
``Cross Domain (CD) Policy'' requirements. Using an ECDS provider 
allows Constellation to rely upon existing and proven computing tools 
and architectures, while reducing initial cost and deployment time. The 
program expects DIA's ECDS to meet Constellation's requirements to pass 
information between NIPRNet, SIPRNet, and JWICS. Regarding the cross-
domain requirement between the public network (SUNet) and our NIPR DOD 
network, DTRA expects to use Commercial Off the Shelf (COTS) products 
to perform deep-content filtering and sanitization of public data prior 
to ingestion into Constellation on the DOD networks.
    Mr. Langevin. Can you provide an update on DOD's process for 
completing the instruction manual for DOD Directive 8140 and when this 
process might be completed? How is it being accepted by the services?
    Mr. Halvorsen. DOD Directive 8140.01 will be supplemented by an 
Instruction and at least one Manual. The Instruction will establish 
policy and procedures and assign responsibilities for the DOD 
Components to identify, code, track, and report on their respective 
cyber workforces. A draft of the Instruction completed a first round of 
informal coordination with DOD Components in December 2015. In the 
interim, the Department will publish policy guidance to implement the 
identification and coding requirements of the Cybersecurity Workforce 
Assessment Act of 2015. The Instruction is scheduled to be completed in 
2017 and will incorporate the interim policy guidance.
    The Manual(s) will establish procedures, standards, and 
requirements for qualifications of the DOD cyber workforce, as required 
by DOD Directive 8140. In 2015, the Department commissioned a study to 
identify the standards for qualification criteria across cyber work 
roles. The study, completed in March 2016, provides an analysis of 
current government, academia, and industry best practices in 
recruiting, developing, professionalizing, and retaining cyber 
personnel. In May 2016, the DOD CIO will convene subject matter expert 
panels to develop specific qualification criteria for each respective 
information technology and cybersecurity work role. The Manual(s) are 
scheduled to be completed in 2018.
    The Services and Defense Agencies have been involved in the 
Department's transition to a holistic view of cyber from the onset and 
continue to play an important role in shaping the policies and DOD 
Cyber Workforce Framework that will govern and shape the Department's 
cyber forces into the future.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. KLINE
    Mr. Kline. What is your assessment of the impact of one service 
acquiring commercial satellite communications on behalf of the 
Department of Defense as required under section 1610 of the FY16 NDAA?
    Mr. Halvorsen. In the past two years, the Department has realized 
successes in the commercial satellite communications (COMSATCOM) domain 
as a result of improved COMSATCOM planning, acquisition and management 
reforms discussed in the responses to Senate Report 113-44, page 167, 
accompanying S. 1197 of the NDAA for FY 2014 and Sections 1603 and 1605 
of the FY 15 NDAA. Specifically, the cost of COMSATCOM services has 
been declining, DISA's operational responsiveness has improved, and 
DISA's SATCOM pathfinders are yielding efficiencies in the use of the 
acquired services. Likewise, the Air Force pathfinders are providing 
valuable lessons related to investments in COMSATCOM solutions that 
will further drive acquisition and utilization efficiencies as part of 
our Wideband SATCOM Plan. To the extent they can, these lessons learned 
will be folded into the Wideband SATCOM Analysis of Alternatives 
directed by Section 1611 of the FY 16 NDAA.
    With that in mind, the Department is concerned that restructuring 
this approach by assigning a single agent for acquisition of COMSATCOM 
services and investment in COMSATCOM capability may ultimately result 
in increased cost and decreased operational responsiveness for DOD 
customers with no noticeable improvement in DOD's overall SATCOM 
``planning, acquisition, and management'' processes and governance. To 
that end and in response to Section 1610 of the FY 16 NDAA, my office 
has tasked the Air Force to evaluate, and provide the cost estimates to 
implement, alternative courses of action to satisfy the intent of 
Section 1610. These plans and cost estimates will be evaluated and 
coordinated with the Services and Combatant Commands with their inputs 
incorporated in the DOD response to Section 1610.
    Mr. Kline. Section 1610 of the FY16 NDAA requires the Department of 
Defense to designate a single acquisition agent to acquire commercial 
satellite communications. Have the major users (services and combatant 
commanders) of commercial satellite communications provided input to 
the Chief Information Officer regarding changes to commercial satellite 
acquisition and management required in the FY16 NDAA?
    Mr. Halvorsen. In response to Section 1610 of the FY 16 NDAA, DOD 
CIO has tasked Air Force to evaluate, and provide the cost estimates to 
implement, alternative courses of action to satisfy the intent of 
Section 1610. These plans and cost estimates will be evaluated and 
coordinated with the Services and COCOMs with their inputs incorporated 
in the DOD response to Section 1610.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. What is the status of the DOD Commercial Partnership 
Data Distribution Center you mentioned in last year's testimony, and 
when will you have a secure commercial cloud capability operating from 
within a DOD data center facility?
    Mr. Halvorsen. IBM's Cloud Managed Services for Government (IBM-
CMSG) is an Infrastructure as a Service cloud provided from the Navy's 
Allegany Ballistics Laboratory (ABL) in West Virginia. It was granted a 
DOD provisional authorization at level 5 (Unclassified-FOUO) for use by 
the Defense Logistics Agency and Naval Sea Systems Command in February 
2016.
    Two additional acquisitions of a secure, on-premise clouds are 
currently underway in the Army and the Defense Information Systems 
Agency:
    The Army's effort will assess the feasibility and value of an on-
premises, commercially owned/commercially operated cloud service 
offering at Redstone Army Arsenal. The Army is taking a ``statement of 
objectives'' approach to obtaining this capability in order to fully 
partner with industry, learn from its experts and implement commercial 
best practices for cloud migration and security. The intent of the 
pilot is to produce a secure, commercial cloud capability by fiscal 
year 2017 that meets all requirements for hosting sensitive National 
Security Systems at information security impact levels 5 (FOUO) and 6 
(Secret). The Army released a request for information in November 2015 
and held an industry day on 21 January 2016 with interested parties.
    DISA is also exploring the use of commercial infrastructure 
services residing in DOD facilities to implement an ``on-premises 
private'' infrastructure service for the DOD community and mission 
partners. The initial phase of this effort is referred to as milCloud 
2.0 Phase 1 (M2P1). DISA released an RFI (PL83220028) on February 12, 
2016, to assess the marketplace's interest in providing on-premises 
infrastructure services from within DOD data center facilities and to 
get advice on refining the businesses model process. DISA is currently 
reviewing RFI responses and refining their approach for a planned award 
in first quarter FY17.
    Mr. Lamborn. The DOD has access to a vast amount of data generated 
by its own IT devices, networks, and equipment. How is the Department 
leveraging this data to reduce costs, improve operations, and 
strengthen cybersecurity?
    Mr. Halvorsen. DOD leverages data from a wide array of DOD IT 
devices, networks, and equipment to guide it in reducing costs, 
improving operations and strengthening cybersecurity (CS) across the 
department in support of warfighting and business mission areas. DOD is 
committed to constant improvement in its data collection and analytic 
efforts to ensure the best possible mission outcomes for our 
warfighters and the most efficient use of taxpayer dollars.
    DOD CIO led the development of the SECDEF Cybersecurity Scorecard 
populated with internal DOD data against 11 key cyber measures. The 
measures were informed by our understanding of how we are vulnerable to 
adversary attacks as described in the 2015 DOD Cybersecurity Discipline 
Implementation Plan. This management tool therefore allows the 
Secretary to assess progress against goals which will tangibly reduce 
vulnerability. Further, it focuses each of the Department's 46 
component organizations and the Department as a whole on assessing and 
addressing vulnerabilities. Most of the Scorecard data is pulled from 
automated cybersecurity tools currently deployed across the Department 
and we are actively working to build on this momentum to improve how 
data is automatically collected, integrated, analyzed and reported 
across the Department.
    The SECDEF Cybersecurity Scorecard is one very visible element of 
the Department's overall effort to use data to reduce costs, improve 
operations, and strengthen cybersecurity. The Defense Information 
Systems Agency (DISA), working with the Military Departments and 
USCYBERCOM, is leading the effort to build a joint interoperable 
(common) platform to collect and visualize vast amounts of data. This 
capability is called the Big Data Platform (BDP).
    The BDP's value is three-fold:
    First, it is a computing information system infrastructure 
(software) that can be easily shared. Sharing this infrastructure 
enables the ability to create common visualization analytics that can 
then be distributed across operational centers, ultimately reducing 
work efforts, re-work and overall costs. Moreover, it leads to a common 
way of operating, strengthening Tactics, Techniques and Procedures 
(TTPs) to aid in the cybersecurity mission.
    Second, the BDP is data agnostic. The platform can collect vast 
amounts of data in any mission area (cyber, business, personnel, etc.). 
The concept is that the data can be collected and queried (correlating 
analytics) to answer an infinite amount of operational questions (use 
cases/scenarios). Data drives situational awareness and an operational 
use case drives what data should be collected and visualized. The BDP 
inherently drives the DOD toward the development and implementation of 
data standards. An example would be the Structured Threat Information 
eXpression and Trusted Automated eXchange of Indicator Information 
(STIX)/TAXII) efforts.
    Third, the BDP is a critical part of an information ecosystem that 
includes cybersecurity sensors, information sharing systems and 
security and incident management (SIEM) capabilities. As the DOD 
collectively consolidates security architectures and TTP's, the BDP is 
being architected to support this consolidation. An example is the 
design and implementation of the Joint Regional Security Stack (JRSS) 
within Joint Information Environment (JIE) Framework.
    Mr. Lamborn. Recently, the Secretary of the Air Force stated that 
over time, the AF wants to transition more and more of network 
operations and maintenance to the private sector. You also spoke of 
leveraging the private sector as well, specifically as it relates the 
use of cloud computing capabilities. Currently these potentially 
outsourced functions are performed by military personnel as well as DOD 
civilians. What happens to the thousands of civilians when this occurs? 
Will they all get re-rolled to defensive operations? Do current legal 
authorities permit the use of title 5 civilian personnel in title 10 
defensive cyber activities? If not, what authorities would the Congress 
need to change or add within the U.S. Code?
    Mr. Halvorsen. The Air Force, like all DOD Components, is 
responsible for deploying capabilities and aligning their workforce to 
meet mission needs. Any military personnel or DOD Civilian efficiencies 
realized as a result of transitioning network operations and 
maintenance functions to the private sector will be available for the 
Services and Agencies to repurpose. At the Department-level, DOD 
Directive 8140.01 unites the management of all cyber skill areas under 
a single governance construct. This construct is bolstered through the 
use of the DOD Cyber Workforce Framework, which will be used to develop 
qualification criteria for all cyber work roles. These qualification 
criteria will provide the Components with the training requirements for 
military and civilian personnel who will remain in cyber work roles. 
DOD civilians currently serve across the Cyber Mission Forces (CMF) and 
can, consistent with law and policy, participate in the CMF's Title 10 
activities.

                                  [all]
</pre></body></html>
